GR-90-98-015
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE CITY OF MESA POLICE DEPARTMENT
ARIZONA
GR-90-98-015
MARCH 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Mesa Police Department (MPD), Arizona. The MPD
received a grant of $975,000 to hire 13 sworn officers under the Accelerated Hiring,
Education, and Deployment Program (AHEAD) and $1,800,000 to hire 24 sworn officers under
the Universal Hiring Program (UHP). The purpose of the additional officers under each of
the grant programs is to enhance community policing efforts. 
Generally, MPD properly implemented the community policing efforts described in its
applications. However, the MPD violated the following grant condition:
 



- The MPD charged the UHP grant for stability pay, resulting in unallowable costs of
      $19,849 and questioned costs of $13,942.



 
#####